State of New York
Supreme Court, Appellate Division
ThirdJudicial Department
Decided and Entered: March 11,2021

i

112388

THE PEOPLE OF THE STATE OF
NEW YORK
v

DECISION AND ORDER
ON MOTION

MICHAEL N. KELSEY,
Defendant.

Application, pursuant to CPL 460.15, for permission to appeal to this Court from
order of County Court, St. Lawrence County, dated June 9, 2020.
Upon the papers filed in support of the application, and no papers having been
filed in opposition thereto, it is

!

ORDERED that the application is denied.

ENTER:
A

0

Hon. Stan L. Pritzker
Associate Justice

K

L.

COUNTY COURT
COUNTY OF ST. LAWRENCE

STATE OF NEW YORK

j:

THE PEOPLE OF THE STATE OF NEW YORK
DECISION AND ORDER
Respondent,
- against Ind. No.: 2015-0123

MICHAEL N. KELSEY,
l

Defendant.

t

;!
I

GARY PA SQUA, District Attorney, Canton (Matthew L. Peabody of counsel), for the People.
MICHAEL KELSEY, defendant pro se.

CATENA, J.
Defendant moves to vacate his conviction pursuant to CPI. 440.10 by motion dated
February 24, 2020.

The People responded by Affirmation

dated March 25, 2020.

Defendant filed additional papers in support of his motion dated March 26, 2020 and

The

a reply

affidavit dated April 15, 2020.
On May 12, 2016, the defendant was convicted after trial of sexual abuse in the first
degree (PL §130.65(2]), attempted sexual abuse in the first degree (PL §§110.00, 130.65(2)).
forcible touching (PL §130.52), and endangering the welfare of
counts).

a child (PL §260.10(1 ])(2

The defendant then moved to set aside the verdict pursuant to CPL 330.30( I) alleging,

among other dungs, that the prosecutor’s opening statement was legally insufficient, and that the
prosecution improperly introduced defendant's prior bad acts. The motion was denied by order
ot this Court and the defendant was sentenced on October 21, 2016.
I

The defendant filed a

notice of appeal with the Appellate Division, Third Department, which affirmed this Court's
judgment (.People v. Kelsey, 174 AD3d 962 [3rd Dep. 2019]).
Initially, except for defendant’s arguments concerning newly discovered evidence and
ji

!;

interest ot justice, the defendant’s motion must be denied because the grounds or issues raised
were previously determined on the merits upon appeal or could have been determined but for

;
defendant’s unjustifiable failure to raise such issues upon appeal (CPL 440.10[2}[a],[c]), And to
the extent defendant alleges facts not appearing on the record, they could with due diligence have
readily been made to appear (CPL 440.10[3][a]). However, were this Court to reach the merits
for those arguments that must he denied as aforementioned, it would findjhem tu be without
merit (CPL 440.30(4]).
Regarding defendant’s arguments concerning alleged newly discovered evidence, his
motion must be denied because he merely alleges impeachment evidence that was in existence
and. therefore, discoverable through cross-examination at the time of trial (.People v. Wagner, 51
AD2d 186, 188 [3d Dept 1976]; People v. Wood, 94 A.D.2d 849, 850 [3d Dep 1983]). Here,
defendant alleges the victims made statements in a January 17, 2019 deposition that they first
told each other about the abuse they suffered while they were intoxicated in September 2014.
‘'[7]he test . . ,

enunciated which has been approved and followed for determining the

sufficiency of the new evidence requires that: (1) it must be of such nature as would possibly
change the verdict should a new trial be granted; (2) it must have been discovered since the
previous trial: (j) it must be of such nature that could not have been discovered before the trial
by the exercise of due diligence; (4) it must be material to the issue; (5) it must not be cumulative
to the former issue; (6) it must not be impeaching or contradictory of former testimony” {People
v. Wagner, supra).
2

Finally, to the extent that defendant seeks relief in the interest of justice, this Court notes
that the Appellate Division, Third Department determined that “[gjiven defendant's denial of
responsibility for his actions, his exploitation of a position of trust and the devasting effect on the
victims, we find no abuse of discretion or extraordinary circumstance warranting a reduction of

I1

!'

the sentence in the interest of justice” (People v.Kelg&p^supra at 966^

i

The foregoing constitutes the decision a(nd order of this CquijL
\

Dated:

<
‘i

0

\
\

\

ribdLO

'HQN. FELIX J.CATENA
County Court Judge

I-

i

rx

\

NOTICE:

i
i!

THE DEFENDANT IS HEREBY ADVISED OF HIS RIGHT TO APPLY TO THE
APPELLATE DIVISION, THIRD DEPARTMENT, P.O. BOX 7288, CAPITOL
STATION, ALBANY, NEW YORK 12224, FOR A CERTIFICATE GRANTING LEAVE
TO APPEAL FROM THIS DETERMINATION. THIS APPLICATION MUST BE
MADE WITHIN 30 DAYS OF SERVICE OF THIS DECISION. UPON PROOF OF
FINANCIAL INABILITY TO RETAIN COUNSEL AND TO PAY THE COSTS AND
EXPENSES OF THE APPEAL, THE DEFENDANT MAY APPLY TO THE
APPELLATE DIVISION FOR THE ASSIGNMENT OF COUNSEL AND FOR LEAVE
TO PROSECUTE THE APPEAL AS A POOR PERSON AND TO DISPENSE WITH
PRINTING.
APPLICATION FOR POOR PERSON RELIEF WILL BE
ENTERTAINED ONLY IF AND WHEN PERMISSION TO APPEAL OR A
CERTIFICATE GRANTING LEAVE TO APPEAL IS GRANTED.

i

3

/

Additional material
from this filing is
available in the
Clerk's Office.

